WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-427
‘William Frederick Lamoureux | ‘State of Montana
(Petitioner) v. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© [am filing this waiver on behalf of all respondents.

oO J only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Barmember. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office/ 1 First Street, NE, Washington, D.C. 20543).

  
 
 

Signature: | y = . ee

‘1a ae

    

Date:

(Type or print) Name | Jonathan M. Krauss

© wr. O Ms. O mrs. oO Miss
Firm |Montana Attorney General / a —_ - /
Address [215 N. Sanders, P.O. Box 201401 7 ; |
City & State |Helena, Montana / oo | dip (59620-1401 : / |
Phone '406-444-2026 | Email krauss@mtgov |

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Fred A. Rowley, Jr., Colin A. Devine, Teresa A. Reed Dippo, David Dewhirst, Travis R. Ahner, Andrew |
cc: (Clegg, Chad Wright, Alexander H. Pyle
